APPENDIX A - Eleventh Circuit Opinion
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 15-15717 '
Non-Argument Calendar

Agency No. 49 U.S.C. section 46110
JONATHAN CORBETT
Petitioner,
versus
TRANSPORTATION SECURITY
ADMINISTRATION,
Respondent.

Petition for Review of a Decision of the
Transportation Security Administration

(July 19, 2019)
-23-

Before TJO FLAT, MARCUS and ROSENBAUM,
Circuit Judges
MARCUS, Circuit Judge:
This is Jonathan Corbett's third pro se challenge
to some aspect of the Transportation Security
Administration's ("TSA") airport scanner equipment
using advanced imaging technology ("AIT"). On each
occasion, he has claimed that TSA's airport screening
procedures violated his right to be free from
unreasonable searches and seizures, citing to the
Fourth Amendment of the United States Constitution.
In an earlier lawsuit that wound up before this Court,
Corbett sought to reverse a decision of TSA,
challenging the Administration's previous policy that
gave passengers at airport security checkpoints the
option of obtaining security clearances through either
advanced imaging technology (AIT) body screeners or
alternative screening procedures, like a physical pat
down. A panel of this Court dismissed Corbett's
petition as being untimely, and, alternatively, held
that TSA's use of body scanners and pat-down
procedures did not violate the Fourth Amendment.
Corbett v. TSA. 767 F.3d 1171, 1182 (llth Cir. 2014)
("Corbett I"). We had little trouble concluding that the
substantial danger to life and property that could
result from airplane terrorism outweighed the
possible intrusion of TSA's AIT and pat-down
screening procedures on airline passengers. Id.

-24-

This time Corbett challenges TSA's latest policies
and orders that require certain airline passengers to
pass through AIT screeners, eliminating for them the
option of being screened by a physical pat-down. After
careful review, however, we conclude that this Court
is without jurisdiction to entertain Corbett's claims.
As pled, Corbett lacks the necessary standing to bring
this petition, and, accordingly, we are required to
dismiss it.
In the absence of standing, the federal courts do
not have the power to opine in an advisory capacity
about the merits of these claims. We have repeatedly
held that "[sltanding is a threshold jurisdictional
question which must be addressed prior to and
independent of the merits of a party's claims." Bochese
v. Town of Ponce Inlet. 405 F.3d 964, 974 (llth Cir.
2005) (quotations omitted; citing, e.g.. Steel Co. v.
Citizens for a Better Env't. 523 U.S. 83, 102 (1998)).
The essential problem here is that Corbett has failed
to establish that he suffered an injury in fact, that is,
the invasion of a judicially cognizable interest that is
concrete and particularized and actual and imminent.
I.
A.
We review de novo questions concerning subjectmatter jurisdiction, including standing. Elend v.
Basham. 471 F.3d 1199, 1204 (llth Cir. 2006). When
ruling on standing at the pleading stage, we "must
accept as true all material allegations of the
-25-

[pleading], and must construe [it] in favor of the
complaining party." Warth v. Seldin. 422 U.S. 490,
501 (1975). Moreover, if we have been presented with
"facts beyond the four corners" of the pleading that are
relevant to the question of standing, we may consider
them. Cone Corn, v. Fla. Den't of Transn.. 921 F.2d
1190, 1206 n.50 (llth Cir. 1991). The party invoking
federal jurisdiction bears the burden of establishing
standing. Lujan v. Defs. of Wildlife. 504 U.S. 555, 561
(1992).
B.
We begin with the relevant background and
procedural history surrounding Corbett's petition.
Congress vests responsibility for civil aviation
security in the TSA Administrator. 49 U.S.C. § 114(d).
The Administrator is required to "assess current and
potential threats to the domestic air transportation
system," take all necessary steps to protect the Nation
from those threats, and improve transportation
security in general. Id- §§ 44903(b), 44904(a), (e).
Among other things, the Administrator must ensure
that "all passengers and property" are screened before
boarding, to prevent passengers from "carrying
unlawfully a dangerous weapon, explosive, or other
destructive substance." Id. §§ 44901(a), 44902(a).
Nonmetallic explosives and other nonmetallic
threats pose a significant danger to aviation security.
See Passenger Screening Using Advanced Imaging
Technology, 81 Fed. Reg. 11,364,11,365 (Mar. 3, 2016)
-26-

(final rule); see also 49 U.S.C. § 44925(a) (directing
TSA to "give a high priority" to the development of
new technologies to detect such threats). The danger
caught this nation's attention when, on Christmas
Day, 2009, a terrorist affiliated with A1 Qaeda in the
Arabian Peninsula attempted to destroy a plane using
a nonmetallic explosive device hidden in his
underwear. Passenger Screening Using Advanced
Imaging Technology, 78 Fed. Reg. 18,287, 18,299
(Mar. 26, 2013) (notice of proposed rulemaking); see
also id. (describing similar attempts). The screening
procedures then in effect, which included the use of
metal detectors and pat-downs, could not detect the
Christmas Day bomber's device. IdIn October 2010, TSA began using AIT scanners as
a primary screening method at airport security
checkpoints. Corbett I. 767 F.3d at 1174-75. Unlike
conventional metal detectors, AIT scanners can detect
both metallic and nonmetallic objects concealed on a
passenger's body or in a passenger's clothing. Id.; see
78 Fed. Reg. at 18,297 (listing examples of potentially
dangerous items, including nonmetallic threat items,
that TSA has discovered using advanced imaging
technology). Indeed, TSA has determined that AIT
scanners are the "most effective technology currently
available" to repair this "critical weakness" in the
Nation's security infrastructure. 81 Fed. Reg. at
11,365.
When AIT scanners were first used, they displayed
the actual contours of the scanned passengers' bodies.
-27-

They no longer do so -- each scanner instead now
notifies TSA agents about potential concealed threats
by highlighting those areas on a generic outline of a
person, and that generic or stylized image is
temporarily shown on a monitor. See Corbett I. 767
F.3d at 1175. The image of a screened individual is the
same as the images provided for all other screened
individuals. 49 U.S.C. § 44901(1) . Moreover, the AIT
scanners in use at American airports do not collect
any personally identifiable information, they do not
display an individualized image every time a
passenger passes through them, and they are not
configured to store or to transmit any passengerspecific images. See 81 Fed. Reg. 11,373-82; Privacy
Impact Assessment Update for TSA Advanced
Imaging Technology, DHS/TSA/PIA-032(d), at 4 (Dec.
18, 2015).
Since TSA began using AIT technology, Corbett
has brought at least five suits challenging the
Administration's screening policies; two of them did
not involve the AIT body scanners. In 2010, Corbett
sued TSA in federal district court in Miami
challenging the use of AIT scanners as a primary
screening method at airport security checkpoints, and
moved for a nationwide injunction barring TSA from
implementing that or any AIT screening. See Order
Granting Mot. to Dismiss, Corbett v. United States.
No. 10-cv-24106, 2011 WL 2003529 (S.D. Fla. Apr. 29,
2011). The district court denied the motion and
dismissed the action for want of jurisdiction because
-28-

the procedures he sought to challenge constituted a
TSA "order" pursuant to 49 U.S.C. § 46110. Petitioner
appealed and moved for interim injunctive relief. A
panel of this Court denied that motion, see Order,
Corbett v. United States. No. 11-12426 (llth Cir. July
27, 2011), and affirmed the district court's judgment,
see Corbett v.. United States. 458 F. App'x 866, 871
(llth Cir. 2012),
cert, denied, 133 S. Ct. 161 (2012).
i
Corbett later petitioned this Court to review TSA's
use of AIT scanners as a primary screening method at
airport security checkpoints, and again sought
injunctive relief. A panel of this Court denied the
application because it "fail[ed] to meet the applicable
standard for granting injunctive relief." Order,
Corbett v. TSA. No. 12-15893 (llth Cir. Apr. 4, 2013).
Thereafter, we dismissed the petition as untimely,
and, in the alternative, denied the petition because
the challenged, screening methodology did not violate
the Fourth Amendment. Corbett I. 767 F.3d at 1184.
Petitioner unsuccessfully sought certiorari review.
Corbett v. TSA. 135 S. Ct. 2867 (2015).
Meanwhile, in March 2012, Corbett filed another
complaint in the United States District Court for the
Southern District of Florida, this time arising out of a
TSA screening experience he had at the FortLauderdale-Hollywood International Airport, when
he consented to a pat-down after refusing to go
through a full-body scanner. Corbett v. TSA. 568 F.
App'x 690, 692 (llth Cir. 2014), cert, denied. 135 S.
Ct. 1559 (2015). He lodged twenty-one claims against
-29-

\

I
I

i

TSA, a TSA official, Broward County and the Broward
County Sheriffs Office, including Fourth Amendment
claims against the TSA official at the airport, Federal
Tort Claims Act ("FTCA") claims against the United
States, PrivacyI Act claims against TSA, and a claim
against TSA i for unredacted records under the
Freedom of Information Act ("FOIA"). Id- at 695. After
the district court dismissed the majority of Corbett's
claims for failure to state a claim and granted
summary judgment on the remaining FOIA claims, a
panel of this Court affirmed. Id. at 692. We held that
the district court had not erred because, among other
things, the search of Corbett's bags by the TSA official
and TSA's detention of Corbett were reasonable under
the Fourth Amendment, the FTCA claims were barred
by sovereign immunity, Corbett had failed to allege
that he suffered any damages as required for his
Privacy Act claims, and FOIA allowed for the
redactions that had been made to documents TSA had
provided to Coirbett. Id. at 696-705.
Again, in 2015, Corbett filed another petition for
review in this Court, this time challenging a TSA
program thatj requires airline employees to ask
i
certain passengers some questions before allowing
them to board international flights bound for the
United States. Order, Corbett v. TSA. No. 15-10757
(llth Cir. July 21, 2016). There, a panel of this Court
concluded that the claim was not justiciable,
reasoning that even if Corbett bought a ticket for an
international flight, there was no assurance that he
-30-

i
:
I

would actually be questioned. Id. at 4. The long and
short of it wajs that his claim was speculative and
speculative claims could not support constitutional
standing. Id. !
i

C.
!

Coming thfen to Corbett's instant petition, TSA
issued a noticb of proposed rulemaking on March 26,
2013. See 78 . Fed. Reg. 18,287. The proposal was
designed to "codif[y] the use of AIT to screen
individuals
!at
aviation
security
screening
checkpoints." Id. at 18,289. The final rule regarding
AIT screening! was promulgated in March 2016. See
81 Fed. Reg. 111,364. The final rule provides that
airport security checkpoints "may include the use of
[AIT]." Id. at 1|L,405. The preamble to the final rule for
the first timej codified that AIT screening will be
mandatory for some passengers as warranted by
security considerations. This rule reflected "current
DHS policy." lid. at 11,366. TSA declined to include a
i

passenger's ri^ht to opt-out of AIT screening, writing
that the agency "may require AIT use, without the
opt-out alternative, as warranted by security
considerations: in order to safeguard transportation
security." Id. ait 11,388-89. TSA explained publicly in
a Private Impjact Assessment Update that TSA had
changed its "operating protocol regarding the ability
of individuals jto . . . opt-out of AIT screening in favor
of physical screening." Privacy Impact Assessment
Update for TSA Advanced Imaging Technology,
DHS/TSA/PIA|032(d), at 1 (Dec. 18, 2015). "While
-31 -

passengers may generally decline AIT screening in
favor of physical screening, TSA may direct
I
mandatory AIT screening for some passengers as
warranted by security considerations in order to
safeguard transportation security." Id. at 3.
TSA has explained that the "enhanced screening"
procedures -- \yhich require the use of AIT machinery
without an opt-out alternative -- apply to individuals
designated as "selectees." Supp. App'x 90; see also
TSA,
Frequently
Asked
Questions,
https V/www.tsa.gov/travel/frequently-askedquestions (search "decline AIT screening") (last visited
June 27, 2019) (explaining that "some passengers will
be required to undergo AIT screening if their boarding
pass indicates that they have been selected for
enhanced screening"). There are several "[s]electee
categories, whfich differ based on the individual's []
known 0 derogatory and risk information." Supp.
App'x 901. One of these categories covers "[k]nown or

1 Congress has directed TSA to "prescribe regulations prohibiting
the disclosure of information obtained or developed in carrying
out security ... if [TSA] decides that disclosing the information
would ... be detrimental to the security of transportation." 49
U.S.C. § 114'(r)(l)(C). In response to that directive, TSA has
defined a body of|information as Sensitive Security Information
("SSI") that may not be disclosed except in certain limited
circumstances. 49 C.F.R. § 1520.5 (describing information that
constitutes SSI)J id. § 1520.9(a)(2) explaining that SSI may
generally be disclosed only to "covered persons who have a need
to know"); id. § 1520.7 (defining "[c]overed persons"); id. § 1520.11
(defining "need jto know"). In this case, TSA has filed a
Supplemental Appendix containing SSI materials, and has filed
a redacted version available for Corbett to review...
-32-

!

suspected [terrorists," and includes individuals listed
in a "Terrorist Screening Database." Id- The other
categories have been redacted from the public version
of this document. Id. In addition to the categories of
selectees created based on risk information, TSA has
created an additional category of selectees, as of July
2016, which [is comprised of airline passengers
randomly chos'en as selectees for a particular trip. Id.
at 105-06. TSA explained that this policy was
designed to inform the general public that "enhanced
screening is conducted on a random basis," thereby
deterring "[ujnknown terrorists" without significantly
l
impeding checkpoint operations. Id. at 105. When
passengers arle designated as selectees subject to
enhanced screening - whether they were selected
randomly or f<j>r risk-based reasons -- their boarding
passes always| display an "SSSS" notation. See id. at
90. TSA has explained, however, that mandatory AIT
screening will |be required "in a very limited number
of circumstances," so it will not affect the "vast
majority of passengers." See TSA, Frequently Asked
Questions,
j https J/www.tsa.gov/travel/frequently

Since the filing of Corbett's petition, TSA moved this
Court to supplement the record with additional SSI materials,
also reproduced in TSA's Supplemental Appendix. Because the
materials contained therein are relevant to the questions before
us and will allow us to make a more informed decision as to
standing, we GRANT TSA's motion to supplement. See Schwarz
v. Millon Air. Incl. 341 F.3d 1220, 1225 n.4 (llth Cir. 2003); see
also Corbett I. 7fj7 F.3d at 1183 (granting TSA's motion to seal
SSI materials information because "Corbett has no statutory or
regulatory right tp access it").
-33-

[

asked-questioris (search "decline AIT screening") (last
visited June l4, 2019).
This policy,-- which denies certain passengers the
right to opt-out -- is at the heart of Corbett's challenge.
He claims tb!at a screening policy banning any
opportunity to' opt-out of AIT screening violates the
Fourth Amendment and the Administrative
Procedure Actt Corbett says that the newly minted
mandatory policy violates the Fourth Amendment
l
because a physical pat-down would be equally
effective. TSA| in turn, argues that mandatory AIT
screening procedures for certain passengers is in fact
far more effective at detecting threats than the optout policy that it replaced. Finally, and, for our
purposes, most importantly, TSA urges that Corbett
lacks standing to challenge the mandatory screening
procedures and, therefore, that this Court is without
power to enterjtain Corbett's claims.
II.
"It by now axiomatic that the inferior federal
courts are courts of limited jurisdiction. They are
empowered to jrear only those cases falling within the
judicial power of the United States as defined by
Article III of the Constitution." Univ. of S. Alabama v.
Am. Tobacco Co.. 168 F.3d 405, 409 (llth Cir. 1999).
Article III, thbn, limits our power only to "cases or
controversies.Bowen v. First Family Fin. Servs.. Inc..
233 F.3d 1331-, 1339 (llth Cir. 2000). One essential
component of the "case or controversy" requirement is
i

-34-

i

1

that the plaintiff must have standing to pursue his
claim in a federal court. Id. Indeed, standing is a
threshold question that must be explored at the outset
of any case. Bochese. 405 F.3d at 974. In its absence,
"a court is not free to opine in an advisory capacity
about the merits of a plaintiffs claim." Id. In fact,
standing is
"perhaps the
most important
jurisdictional" requirement, and without it, we have
no power to judge the merits. Id- (quotations
omitted)2.
The three prerequisites for standing are that: (l)
the plaintiff lias suffered an "injury in fact" -- an
invasion of a judicially cognizable interest, which is (a)
2 It may be that tjhere are also problems of ripeness and finality
lurking in Corbett's petition for review. The ripeness doctrine
examines "whether there is sufficient injury to meet Article Ill's
requirement of a base or controversy and, if so, whether the claim
is sufficiently mature, and the issues sufficiently defined and
concrete, to permit effective decision-making by the court." Elend
v. Basham. 471 F^3d 1999, 1210-11 (llth Cir. 2006). Whether an
agency action is "final" depends on if the agency's action has been
"consummated," | as opposed to being "tentative and
interlocutory," and if the action is one by which "rights and
obligations have been determined" or from which "legal
consequences will flow." Nat'l Parks Conservation Ass'n v.
Norton. 324 F.3d 1229, 1236 (llth Cir. 2003) (quotations
omitted). But because the standing issue before us is
straightforward, (because standing is paramount among our
jurisdictional, inquiries, and because the parties have not argued
ripeness or finality, we dismiss Corbett's petition on standing
grounds alone. As the Supreme Court has explained, "a federal
court has leeway :o choose among threshold grounds for denying
audience to a case on the merits." Sinochem Int'l Co. v. Malaysia
Int'l Shipping Corn.. 549 U.S. 422, 431 (2007) (citations and
quotations omitted). Indeed, "[tjhere is no mandatory sequencing
of jurisdictional issues." Id. (citation and quotations omitted).
-35-

concrete and particularized, and (b) actual or
imminent, not conjectural or hypothetical; (2) there be
a causal connection between that injury and the
conduct complained of -- the injury must be fairly
traceable to the challenged action of the defendant,
and not the result of the independent action of some
third party no|t before the court; and (3) it be likely,
i'
not merely speculative, that the injury will be
redressed by a favorable decision. Lujan. 504 U.S. at
560-61; see also 31 Foster Children v. Bush. 329 F.3d
1255, 1263 (lllth Cir. 2003). "By insisting that a
plaintiff show a substantial likelihood of future injury,
in the absence of declaratory or injunctive relief,
courts further one of the purposes of the constitutional
standing requirement -- reserving limited judicial
resources for individuals who face immediate,
tangible harm absent the grant of declaratory or
injunctive relief." Bowen. 233 F.3d at 1340 (citing 13A
Charles Alan Wright & Arthur R. Miller, Federal
Practice and Procedure, § 3532.1, at 114 (2d ed.
1984)).
In order to satisfy the injury-in-fact requirement of
standing, a plaintiff may show that he "has sustained
or is immediately in danger of sustaining some direct
injury." Lynch v. Baxley. 744 F.2d 1452, 1456 (llth

Cir. 1984) (quoting O’Shea v. Littleton. 414 U.S. 488,
494 (1974)). "Plaintiffs must demonstrate a personal
stake in the outcome in order to assure that concrete
adverseness which sharpens the presentation of
issues necessary for the proper resolution of
-36-

constitutional questions." City of Los Angeles v.
Lyons. 461 U. 3. 95, 101 (1983) (quotations omitted).
"Abstract injury is not enough." Id. A plaintiff need
not wait for an injury to occur, so long as he "is
immediately in danger of sustaining some direct
injury" as a result of the challenged official conduct
and the injury or threat of injury is both "real and
immediate," not "conjectural" or "hypothetical." Id. at
101-02 (quotations omitted); see also Whitmore v.
Arkansas. 491: U.S. 149, 158 (1990) ("A threatened
injury must be certainly impending to constitute
injury in fact.") (quotations omitted); 31 Foster
Children. 329 F.3d at 1266-67 (noting that standing
for declaratory or injunctive relief requires that future
injury "proceei with a high degree of immediacy").
Immediacy requires that the anticipated injury occur
within some f xed period of time in the future. Fla.
State Conference of N.A.A.C.P. v. Browning. 522 F.3d
1153, 1161 (llth Cir. 2008). "When a plaintiff cannot
show that an injury is likely to occur immediately, the
plaintiff does not have standing to seek prospective
relief even if he has suffered a past injury." 31 Foster
Children. 329 F.3d at 1265. And even if the plaintiff
shows immediacy, the injury must still be
substantially 'ikely to actually occur, meaning that
the threatened future injury must pose a realistic
danger and cannot be merely hypothetical or
conjectural. Fla. State Conference of N.A.A.C.P.. 522
F.3d at 1161; see also Bowen. 233 F.3d at 1340
(observing tha,t a "perhaps or maybe chance" of an
injury occurring is not enough for standing).
-37-

The Supreme Court extensively explored the idea
of future injury in City of Los Angeles v. Lyons. There,
the plaintiff, Adolph Lyons, sought to enjoin Los
Angeles police officers from using a certain chokehold
technique in order to render arrestees unconscious.
461 U.S. at 9'7-98. Lyons claimed that he had been
personally subjected to the challenged technique in
the past, an I that Los Angeles police officers
"routinely applied] chokeholds in situations where
they are not threatened by the use of deadly force." Id.
at 105. In holding that Lyons lacked standing to sue,
the Supreme Court explained that while Lyons "may
have been illegally choked by the police" in the past,
this "does nothing to establish a real and immediate
threat that he would again be . . . illegally choke[d]" in
the future. Id. The Supreme Court recognized that,
"among the countless encounters between the police
and the citizens of . . . Los Angeles, there will be
certain instances in which strangleholds will be
illegally appliesd." Id, at 108. Nevertheless, "it is . . . no
more than speculation to assert either that Lyons
himself will again be involved in one of those
unfortunate ir stances, or that he will be arrested in
the future and provoke the use of [the] chokehold"
technique that! Lyons challenged. Id. In other words,
"even assuming that Lyons would again be stopped for
a traffic or other violation in the reasonably near
future, it is uitenable to assert, and the complaint
made no suci allegation, that strangleholds are
applied by the Los Angeles police to every citizen who

-38-

is stopped or arrested regardless of the conduct of the
person stopped." Id.
Applying Iiyons. we've held many times that a
plaintiff failed to establish an injury in fact when the
likelihood of future constitutional injury was too
speculative. Thus, for example, in J W ex rel. Williams
v. Birmingham Bd. of Educ.. 904 F.3d 1248 (llth Cir.
2018), some Birmingham high school students sued
the Birmingham school board and the City's police
department, alleging that the defendants used
excessive force! in violation of the Fourth Amendment
by spraying Fteeze +P -- an incapacitating chemical
spray -- on students and by failing to adequately
decontaminate them. A panel of this Court held that
the student class representative lacked standing to
seek declaratory and injunctive relief barring the useof-spray claims because there was no "real and
immediate thieat that she would be subjected to
excessive forcej" by the use-of-spray policy. Id. at 1265.
Again, the "livelihood of future constitutional injury
[was] too speculative" because the intentional "use of
chemical spray in Birmingham high schools had been
infrequent." with an estimated 0.4% chance per
student, and "[alllegations of intentional chemical
spraying that also constitutes excessive force were
even more rare." with an estimated 0.003% chance per
student. Id. ar 1268 (emphases added). We did not
suggest that Freeze +P would never be used against a
student in an unconstitutional way by a police officer,
but we coneluc ed nevertheless that "the probability of
-39-

future instances of unconstitutional spraying is
[in] sufficient to provide standing to obtain declaratory
and injunctive relief." Id. For the same reasons, we
extended the holding to bar the decontamination
claims, where there was only an estimated 1.77%
chance of a student being intentionally or
unintentionall y
sprayed
and
improperly
decontaminate d. Id. at 1273.
We faced the same problem in Bowen v. First
Family Financial Services, where the plaintiffs
challenged a binder's practice of requiring customers
to sign arbitration agreements. 233 F.3d at 1333. We
did not address the merits of the plaintiffs' claims that
the practice violated the Truth in Lending Act
("TILA") because we concluded that the plaintiffs
lacked standing to pursue their TILA claims. Id. at
1341. The plaintiffs had not shown a "substantial
likelihood that [the defendant] will take some action
that at least arguably violates the TILA or some
related law." la. at 1340. We went on to say that if the
defendant werb to violate TILA, "we would also have
to find there was a substantial likelihood that the
plaintiffs and [the defendant] would be unable to
resolve any resulting dispute without litigation," and
"[t]he undenbble fact is that the vast majority of
credit transactions such as the ones in this case do not
result in litigation." Id. (emphasis added). Without
more, "enforcement of the arbitration agreement
against thes
plaintiffs" was not "certainly
impending," for purposes of the standing inquiry. Id.
-40-

Still again, a panel of this Court addressed the
requirements of standing in Elend v. Basham. 471
F.3d 1199 (lllh Cir. 2006). There, the plaintiffs had
been protesting outside of the Sun Dome in Tampa,
Florida during a political rally attended by President
George W. Buih in 2002. Id. at 1202-03. The Secret
Service ordered them to move to an authorized
"protest zone, which was further away. Id. The
plaintiffs sought to enjoin the Secret Service from
taking similai action in the future that they said
would violate their First Amendment rights, and they
claimed to have standing because they "fully
intend[ed] to peacefully express their viewpoints in
the future in a manner similar to their activities on
November 2, 2002 in concert with presidential
appearances at the . . . Sun Dome and at other
locations around the country." Id- at 1204. We
affirmed the cistrict court's dismissal of the claims
because the plaintiffs' intention to protest in a similar
manner in the Jfuture was too speculative, "Other than
the one instance in November 2002, we [we]re not
even given a jdescription of Plaintiffs' past conduct
from which to j infer that they might act in a similar
manner in thle future," and thus it was "entirely
conjectural thdt President Bush would return to speak
at a political rally at the Sun Dome." Id- at 1209.
On the record presented to this Court, Corbett's
theory of standing is just as conjectural and
speculative as the claims made by the plaintiffs in
Lyons, in JW, in Bowen, and in Elend. if not more so.
-41 -

For starters, Corbett has not claimed that he has ever
been subjected to mandatory AIT screening under the
current TSA policy that he is challenging, nor that he
represents a heightened security risk that would
trigger mandatory screening under the policy. Nor,
finally, has he claimed that his boarding pass has ever
had an "SSSS" notation on it. We recognize that the
mandatory AIT screening policy on review was not
fully in place until July 2016, after Corbett filed his
petition with us in December of 2015, which means
that Corbett may not have yet had a chance to make
these claims in his petition. Significantly, however,
since he filed his petition, Corbett has never said that
he has been selected for mandatory screening or that
he represents a heightened security risk.
While we typically confine our standing analysis to
the four corners of the complaint, we may look beyond
it when we have before us facts in the record. Cone
Corn.. 921 F.2d at 1206 n.50; see also Elend. 471 F.3d
at 1208 ("[I]n the context of a Rule 12(b)(1) challenge
to standing, we are obliged to consider not only the
pleadings, but to examine the record as a whole to
determine whether we are empowered to adjudicate
the matter at hand." (quotations omitted)). So, in
Elend. we found the plaintiffs' future intentions
insufficiently clear to establish standing where the
original allegedly unconstitutional incident had
occurred many years before our decision without any
suggestion that it had occurred again. 471 F.3d at
1209. We observed that "the injury alleged ... remains
-42-

wholly inchoate" where "[p] lain tiffs' intention ... to
protest 'in concert with presidential appearances at
the USF Sun Dome and at other locations around the
country' fail[ed] to provide any limitation on the
universe of possibilities of when or where or how such
a protest might occur." Id. It was "entirely conjectural
that President Bush would return to speak at a
political rally at the Sun Dome," and there was "no
indication that he ha[d] done so again since November
2002 despite numerous presidential visits to Florida."
Id.
Here, both parties have submitted extensive
materials since the filing of Corbett's petition,
including the Petitioner's declarations about his
travel experiences and plans and materials submitted
by TSA. In light of these subsequent filings, it's telling
that Corbett has never said, in his declarations or
otherwise, that he has been subjected to the policy.
Indeed, Corbett has told us that he flew no less than
150,000 miles on over 100 domestic flights from 2013
to 2015, and that because he "fl[ies] at least 50 times
a year for both business and personal reasons, [he]
will have at least 50 more opportunities to be
randomly selected in 2016." See Decl. of Jonathan
Corbett at 1 (Dec. 24, 2015); Decl. of Jonathan Corbett
at 3 (Sep. 19, 2016). But despite his declaration that
he has flown and will continue to take, as best we can
tell, over 50 flights a year, he's taken approximately
150 flights to date since 2016, without incident. Even
in Lyons, J W and Elend, the plaintiffs claimed to have
-43-

suffered some sort of injury as a result of the
challenged policy in the past. See J W. 904 F.3d at
1253, 1264 (recognizing that "[plast wrongs serve as
evidence of whether there is a real and immediate
threat of future injury" and that "[a] number of
Birmingham high school students . . . were sprayed
with or exposed to Freeze +P in 2009, 2010, and
2011"); see also Lyons. 461 U.S. at 108 ("We note that
five months elapsed between October 6, 1976, and the
filing of the complaint, yet there was no allegation of
further unfortunate encounters between Lyons and
the police."); Elend. 471 F.3d at 1209 (describing the
plaintiffs' "one instance in November 2002"). Corbett,
however, has never said that he was subjected to the
mandatory TSA policy, before his petition or since
then, even though he has made numerous filings since
he lodged his petition for review containing
substantial information about his travel patterns and
his interactions with TSA.
Thus, Corbett is left to argue only that he might be
designated as a selectee under TSA's random selection
process. He first says it's likely he will be randomly
selected in the future because he "regularly gets the
'full treatment'" from TSA, and under its past
procedure, TSA randomly subjected him to "selectee"
screening on "at least 3 occasions" and to an
unspecified form of "elevated screening" on "several
more occasions." Pet. Br. at 2. Importantly, however,
Corbett recognizes that TSA's policy has changed, Pet.
Br. at 5, which makes his prior screening history
-44-

irrelevant. C£. Beta Unsilon Chi Unsilon Chanter at
the Univ. of Fla, v. Machen. 586 F.3d 908, 917 (llth
Cir. 2009) ("In cases where government policies have
been challenged, the Supreme Court has held almost
uniformly that voluntary cessation of the challenged
behavior moots the claim.").
In the alternative, Corbett hypothesizes that, as a
frequent flyer who intends to continue flying
frequently, it is likely that he will be randomly chosen
to be a selectee passenger in the future. See Pet. Opp.
To MTD at 6; see also Decl. of Jonathan Corbett at 3
(Sep. 19, 2016). We recognize there's a chance that he
might be selected in the future, based on the random
selection process, but that is not enough under our
case law to show a substantial likelihood of future
injury that is "real and immediate," "actual and
imminent," and not "conjectural" or "hypothetical."
Lujan. 504 U.S. at 560 (quotations omitted); Lyons.
461 U.S. at 102 (quotations omitted). Notably, as TSA
has explained, its AIT screening policy does not affect
the "vast majority" of airline passengers. TSA,
Frequently
Asked
Questions,
http7/www. tsa.gov/travel/frequentlyasked-questions
(last visited June 27, 2019). We used this exact phrase
in Bowen, where we held that the plaintiffs lacked
standing to make a TILA claim since the "vast
majority of credit transactions" would not involve at
least some arguable violation of TILA or a related law.
Bowen, 233 F.3d at 1340 (emphasis added). The odds
of something not happening the "vast majority" of
-45-

times can be compared with the plaintiffs' claims in
Mulhall v. UNITE HERE Local 355. 618 F.3d 1279,
1288 (llth Cir. 2010) (holding that a plaintiffs First
Amendment rights were "at imminent risk of
invasion" because an agreement his employer entered
into with a. labor union "substantially increase[d] the
likelihood" that he would be unionized against his
will); Browning. 522 F.3d at 1163-64 (holding in an
associational standing case that the 20,000-member
organization had standing where it was "highly
unlikely" that not a single member of the organization
would be injured since "someone is certain to get
injured in the end"); and GTE Directories Pub. Corn,
v. Trimen Am.. Inc.. 67 F.3d 1563, 1569 (llth Cir.
1995) (concluding that the "practical likelihood" the
contingencies would occur was "very high" and
"almost inevitable").
It's also worth noting that we've reviewed the
unredacted sensitive security materials provided to
the Court by TSA, and, after considering the actual
percentage of passengers that TSA expects to
randomly select for mandatory AIT screening, we
have no doubt that Corbett does not risk a substantial
likelihood of future injury. See Supp. App'x 105-06
(explaining that, under the selectee-designation
regime currently in effect, no more than [REDACTED
MATERIAL] airline passengers are randomly
designated as selectees to whom the challenged policy
would apply); see also Order, Corbett v. TSA, No. 1515717 (llth Cir. June 6, 2016) (granting TSA's
-46-

request to file portions of the administrative record ex
parte and under seal); Order, Corbett v. TSA, No. 1515717 (llth Cir. Nov. 30, 2016) (granting TSA's
request to file a supplemental appendix ex parte and
under seal); Order, Corbett v. TSA. No. 15-15717 (llth
Cir. May 1, 2017) (denying Corbett's request for
reconsideration); see generally Corbett I. 767 F.3d at
1183 (granting TSA's motion to seal SSI materials).
We do not deny that the "countless encounters
between" TSA agents and airline passengers may well
give rise to "certain instances in which" the
mandatory;AIT-screening policy will be applied to
someone. Lyons. 461 U.S. at 108. But, as the Supreme
Court said in Lyons, that fact does not make Corbett's
claim any less conjectural. See id- (finding no injuryin-fact despite recognizing "certain instances in which
strangleholds will be illegally applied and injury and
death unconstitutionally inflicted on the victim").
Indeed, even if Corbett sought to represent a class of
people, at least one of whom would likely be affected - and he has not sought class relief in this case — that
would not be enough to make his claim sufficiently
likely. See JW, 904 F.3d at 1268, 1272 (finding no
injury-in-fact for the class representative despite
recognizing that the spray may be used against a
student in. an unconstitutional way "in the future"
because "named plaintiffs who represent a class must
allege and show that they personally have been
injured") (quotations omitted).

-47-

Corbett's claim of future injury is weakened still
further because, even accepting the small chance that
Corbett may be randomly subjected to the new policy
at some indeterminate time in the future, there's an
even smaller chance that his random selection for
participation in the mandatory screening program
will result in a constitutional injury. As we've said,
sometimes our standing analysis requires us to take a
"peek" at the merits of the underlying constitutional
claim. Club Madonna. Inc, v. City of Miami Beach. 924
F.3d 1370, 1382 (llth Cir. May 24, 2019)). We
explained in Club Madonna that while "standing in no
way depends on the merits" of a plaintiffs claim, "it
often turns on the nature and source of the claim
asserted," and in some circumstances "weakness on
the merits" informs the question of Article III
standing. Id. (quotations omitted); id. at 1383 (holding
that the Club lacked standing where, among other
things, it could not "clear the low bar of demonstrating
that the challenged provisions are at least arguably
[unconstitutionally] vague as applied to it"). And in
Lyons, the Supreme Court relied in part on the
recognition that not every "traffic stop, arrest, or other
encounter between the police and a citizen" will result
in "the police [acting] unconstitutionally and
inflicting] injury without provocation or legal
excuse." 461 U.S. at 108. Similarly, in J W. we relied
in part on the realization that the "chance of being
unconstitutionally sprayed" was "miniscule." 904 F.3d
at 1268 (emphasis added); see also Kerr v. City of
West Palm Beach. 875 F.2d 1546, 1554 (llth Cir.
-48-

1989) (concluding that plaintiffs who had been
seriously injured when bitten by police dogs in the
course of their arrests by West Palm Beach police
officers lacked standing where the police policy might
"permit
unconstitutional
seizures
in
some
circumstances," but did "not require its officers to act
unconstitutionally").
Here, Corbett has alleged that the TSA policy -which randomly selects certain passengers to undergo
mandatory AIT screening -- violates the Fourth
Amendment. Notably, however, a panel of this Court
has already held, when Corbett challenged the
previous TSA screening regime on Fourth
Amendment grounds, that the use of AIT scanners is
constitutional. See Corbett I. 767 F.3d at 1174. We
explained that "[t]he scanners at airport checkpoints
are a reasonable administrative search [under the
Fourth Amendment] because the governmental
interest in preventing terrorism outweighs the degree
of intrusion on Corbett's privacy and the scanners
advance that public interest." Id. at 1180; see also id.
at 1182 ("The jeopardy to hundreds of human lives
and millions of dollars of property inherent in the
pirating or blowing up of a large airplane outweighs
the slight intrusion of a generic body scan or, as a
secondary • measure, a pat-down.") (quotations
omitted). As we detailed, the AIT scanners, equipped
with automated target recognition
software
"effectively reduce the risk of air terrorism" while
"pos[ing] only a slight intrusion on an individual's
-49-

privacy." Id. at 1181. There, as here, the AIT scanners
do not collect any personally identifiable information,
nor do they display an individualized image every
time a passenger passes through them! rather, the
software temporarily overlays the location of potential
threats onto a generic and stylized figure. See id. at
11751 see also 81 Fed. Reg. 11,373-82; Privacy Impact
Assessment Update for TSA Advanced Imaging
Technology, DHS/TSA/PIA-032(d), at 4 (Dec. 18,
2015).
While Corbett I involved TSA's prior system which allowed passengers to opt-out of AIT screening
and choose a pat-down instead -- the opinion did not
turn on the opt-out option. To the contrary, Corbett
took issue with alternative pat-down procedures as
well. Corbett I, 767 F.3d at 1182. And in any event, we
explained that "the United States enjoys flexibility in
selecting from among reasonable alternatives for an
administrative search." Id. at 1181. "The Fourth
Amendment does not compel the Administration to
employ the least invasive procedure or one fancied by
Corbett." Id. at 1182.
Nor does the strength of his APA claims bolster his
standing arguments. Again, without drawing any
conclusions, despite Petitioner's suggestion that TSA
failed to use the notice-and-comment rulemaking
process to implement the challenged screening policy,
the policy was promulgated after a notice-andcomment rulemaking process that expressly invited
comment on "the ability of passengers to opt-out of
-50-

AIT screening." 78 Fed. Reg. at 18,294. And as for
Corbett's argument that the challenged policy is so
devoid of justification that it must be reversed as
arbitrary and capricious, we've already held in one of
Corbett's earlier cases that TSA's AIT body scanners
are a reasonable administrative search, and that "the
United States enjoys flexibility in selecting from
among reasonable alternatives for an administrative
search." Corbett I. 767 F.3d at 1180-81.
All of this is to say that Corbett has not shown a
substantial likelihood of a future injury that is "real
and immediate," "actual and imminent," and not
"conjectural" or "hypothetical." Lujan. 504 U.S. at 560
(quotations omitted); Lyons. 461 U.S. at 102
(quotations omitted). Just as in Lyons, where the
Supreme Court determined that the likelihood of
unconstitutional chokeholds was too remote, or as in
J W. where this Court found that the likelihood of
being unconstitutionally sprayed was too removed, we
cannot say that the likelihood of Corbett being
unconstitutionally scanned at the airport is
substantial enough. To be clear, we cannot and do not
hold that the mandatory AIT scanning now used by
TSA is constitutional; we can't reach that question
without the power to do so. See Bochese. 405 F.3d at
974. Nevertheless, we are able to say that based on
our holding in Corbett I that TSA's AIT scanning
regime as a general matter was not unconstitutional,
and more importantly, based on our reading of this
record, it's, entirely too speculative to assume that
-51 -

Corbett would-be subjected to TSA's new policy in an
unconstitutional manner3.
As for Corbett's alternative argument that he has
standing based on the "chilling effect" that the policy
has on his travel because he faces an administrative
fine of up to $11,000 and the loss of his airfare if he
refuses to complete screening at a TSA checkpoint, we
remain unpersuaded. The Supreme Court has
explained that parties "cannot manufacture standing
merely by inflicting harm on themselves based on
their fears of .hypothetical future harm that is not
3 Corbett also claims that many of the injuryin-fact cases we rely
on, like Lyons.. are distinguishable, because no chain of
attenuated events must occur before Corbett will be randomly
subjected to mandatory AIT screening. But that is a distinction
without a difference. In either instance, be it through TSA's
random selection process or the steps involved in a police
interaction that may result in a chokehold, the resulting
probability of a future unconstitutional injury is too small to
constitute an injury in fact. Moreover, to the extent the courts
are more likely to confer standing where the plaintiffs' alleged
constitutional injuries are the result of involuntary conduct, see
J W. 904 F.3d at 1269 (noting that plaintiffs with standing in
other cases, "could not avoid exposure to the conduct they
challenged because their own behavior or situation, which drove
the challenged conduct, was involuntary"), Corbett cannot claim
that his conduct is involuntary. As we said in one of Corbett's
earlier challenges to TSA's screening process, being an airline
traveler is a voluntary pursuit, since "passengers elect to travel
by air knowing that they must undergo a search." Corbett I. 767
F.3d at 1182; see also J W. 904 F.3d at 1269 (rejecting the
standing argument that students were sprayed simply because
of their status as students since "[sltudents may misbehave or
act defiantly from time to time, but they can control their own
behavior"). So while we accept that cases like Lyons. J W. Elend
and Bowen do not map directly onto this case, they are
nevertheless instructive.
-52-

certainly impending." Clapper v. Amnesty Int'l USA,
568 U.S. 398, 416 (2013). Corbett cannot demonstrate
that the possible harm of maybe having to undergo
mandatory AIT screening at some indeterminate time
is impending, and his subjective fear of this harm is
not sufficient to create standing. And, in any event, we
cannot ignore Corbett's statement in several filings
that he "has not and has no intention of changing his
travel patterns." Reply Br. at 2; Pet. Opp. To MTD at
6; Decl. of Jonathan Corbett at 1 (Dec. 24, 2015). This
admission severely undermines the claim that TSA's
policy has had-a chilling effect on his travel plans.
His remaining arguments fare no better. He
suggests that because he has also brought claims
under the Administrative Procedure Act, we should
exercise jurisdiction because he has the "substantial
interest" required by 49 U.S.C. § 46110(a) -- the
statute that provides for judicial review of TSA orders.
But even if Corbett satisfies the statutory
requirement that he have a "substantial interest" in
the challenged screening policy, he must first
establish the. type of injury in fact that is a
prerequisite to maintaining suit under Article III of
the Constitution. See Illinois Den't of Transn. v.
Hinson. 122 F.3d 370, 371 (7th Cir. 1997) (explaining
that 49 U.S.C. § 46110(a)'s requirement that a person
have a "substantial interest" means "[a]t a minimum,
. . . someone who has the kind of interest that Article
III of the Constitution has been interpreted to make
prerequisite to maintaining a suit in any Article III
- 53 -

court"); see also Black Warrior Riverkeeper, Inc, v.
U.S. Army Corps of Eng'rs. 781 F.3d 1271, 1279 (llth
Cir. 2015) (recognizing that a plaintiff seeking to bring
suit under a federal statute must show both that he
has Article III standing and also that his injury in fact
"falls within the 'zone of interests' sought to be
protected by the statutory provision whose violation
forms the legal basis for his complaint."). And to the
extent Corbett points to this Court's exercise of
jurisdiction in Corbett I. it's also irrelevant because
there, he was challenging a different policy that
applied to all passengers, see Corbett I. 767 F.3d at
1174 (describing the challenged policy as "standard
operating procedures for security
screening
nationwide"), : whereas the policy Corbett now
challenges does not affect the "vast majority" of
passengers.
Finally,- it may be possible for Corbett to bring a
Fourth Amendment challenge to TSA's policy in the
future -- if, among other things, he is able to establish,
based on a new set of facts, that he has a substantial
likelihood of injury that is "real and immediate,"
"actual and imminent," and not "conjectural" or
"hypothetical." Lujan. 504 U.S. at 560 (quotations
omitted); Lyons. 461 U.S. at 102 (quotations omitted).
All we hold today - indeed all we could hold today -is that on this record, Corbett has not claimed a
sufficient injury in fact. He's not said that he's ever
been subjected to the TSA policy, let alone that he
suffers a greater likelihood of injury in the future than
-54-

the likelihood urged by the unsuccessful plaintiffs in
Lyons, or in J W. or in Elend — for purposes of our
standing inquiry. We are, therefore, required to
dismiss his petition.
PETITION DISMISSED.

-55-

APPENDIX B - U.S. CONST., Art. Ill, § 2, Cl. 1
The judicial Power shall extend to all Cases, in
Law and Equity, arising under this Constitution, the
Laws of the United States, and Treaties made, or
which shall be made, under their Authority;—to all
Cases affecting Ambassadors, other public Ministers
and Consuls;—to all Cases of admiralty and maritime
Jurisdiction;—to Controversies to which the United
States shall be a Party;—to Controversies between
two or more States;— between a State and Citizens of
another State,—between Citizens of different
States,—between Citizens of the same State claiming
Lands under Grants of different States, and between
a State, or the Citizens thereof, and foreign States,
Citizens or Subjects.

-56-

